CERTIFICATE OF SERVICE
I, ALBERTO SOLAR-SOMOHANO, do swear or declare that on this date
7th day of June 2021 as required by Supreme Court Rule 291 have served the
enclosed on each party to the above proceeding or that party’s counsel, and
on every other person required to be served via and to parties email address
of record. The names and addresses of those served are as follows: I declare..—under penalty of perjury that the foregoing is true and
/ALBERTI
Respondents
United States
Jennifer L. Utrecht
Jennifer.l.utrecht@usdoj.gov
The Coca-Cola Company
John Rawls
rocky@bwmtx.com
Related Parties
Acting Solicitor General
United States Department of Justice 950 Pennsylvania
Malcolm.l.stewart@usdoj.gov
MoloLamken LLP
J. Lamken P.A
jlamken@mololamken.com
Gibson Dunn & Crutcher. LLP
M. Perry Gibson
mperry@gibsondunn.com
Tensegritv Law Group LLP
Matthew Powers
@tensegritylawgroup. com

I

